 Email Management Services: Opportunity for
            the Postal Service




                          September 27, 2012




Prepared by U.S. Postal Service Office of Inspector General
            Office of Audit, Revenue and Systems Directorate
            Report Number: SMT-WP-12-001
                 Email Management Services: Opportunity for
                             the Postal Service
                                    Executive Summary

The U.S. Postal Service has the statutory duty to “provide postal services to bind the
[n]ation together through the personal and business correspondence of the people.”1
The Postal Service has met that mission by focusing on the collection, transportation,
and delivery of paper mail and packages. Over the last 15 years, however, reliance on
email has grown to become a key mode of communication for both personal and
business purposes. To continue to meet its mission in the context of evolving
technologies, the Postal Service must modernize the products and services that it
offers.

One innovation the Postal Service may consider is offering email management services,
particularly to small- and medium-sized businesses. The U.S. Postal Service Office of
Inspector General asked the International Center for Integrative Systems to develop
models the Postal Service may want to consider in offering email management services.
This analysis considered the types of services potential users of an email management
system may want and how the Postal Service could leverage its existing resources to
offer such services. The analysis also included high-level estimates of the revenue the
Postal Service could possibly generate under these models.

The key findings of this paper are as follows:

     Offering email management services is consistent with the Postal Service’s
      traditional role as a national communications network.

     The Postal Service may be able to leverage its existing resources and reputation as
      a trusted organization to provide a secure email management service.

     The Postal Service may have the potential to generate significant revenue by
      offering email management services.

     The revenue generation potential is based on several assumptions, which the Postal
      Service would need to evaluate before it pursues email management as a possible
      source of new revenue.

     The Postal Service faces significant challenges, both in seeking authority to offer the
      new service and in implementing the service.



1
    39 U.S.C. § 101.
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service                                                    SMT-WP-12-001



                                                 Table of Contents
Introduction ..................................................................................................................... 1

Background ..................................................................................................................... 2

Postal Service’s Role in Communication ......................................................................... 3

Mechanics and Operations of Email Management Systems ........................................... 5

Email Management Service Options ............................................................................... 9

Challenges in Offering Email Management Services .................................................... 14

Proposed Next Steps .................................................................................................... 16

Conclusion .................................................................................................................... 17

Appendix A: Components of an Email Management System ........................................ 18




                                                                 ii
Introduction

Mail volume has declined each year since peaking at 213 billion pieces in fiscal year
(FY) 2006. In FY 2011, mail volume dropped to 168 billion pieces. The Boston
Consulting Group projected that mail volume will continue to decline over the next
several years and may reach as few as 150 billion pieces by 2020.2 The U.S. Postal
Service attributes the continuing loss of mail volume and revenue to a permanent shift
to electronic alternatives. Weak economic conditions exacerbated this trend, which is
expected to continue for the foreseeable future.

While paper mail volume has decreased in recent years, the use of electronic mail has
increased exponentially. As demonstrated in Figure 1, the number of email messages
sent outnumbered the amount of postal mailpieces sent for the first time in 1997. This
reflects a significant change in the use of communications mechanisms.

                         Figure 1 – Growth of Email Message and Postal Mail Volume


                         100,000,000,000,000
                           1,000,000,000,000
    Number of Messages




                              10,000,000,000
                                 100,000,000
       Transmitted




                                   1,000,000
                                      10,000
                                         100
                                           1
                                               1978




                                               1995
                                               1979
                                               1980
                                               1981
                                               1982
                                               1983
                                               1985
                                               1988
                                               1989
                                               1991
                                               1992
                                               1993

                                               1996
                                               1997
                                               1999
                                               2003
                                               2005
                                               2007
                                               2009
                                               2011
                                               2020




                                                               Year

                                     Email Message Volume                          Postal Mail Volume

Source: International Center for Integrative Systems (ICIS).

This shift from paper to email messaging has significantly impacted the Postal Service’s
financial condition. In FY 2011, the Postal Service posted a net loss of $5.1 billion,
which would have actually exceeded $10.5 billion, had Congress not passed a last-
minute measure to delay an annual payment to the federal government of $5.5 billion.3
The Postal Service has been unable to cut costs quickly enough to keep pace with
declining mail volume and revenue or generate enough additional revenue to offset the
loss. The Postal Service reported a loss of $11.6 billion through the first 3 quarters of

2
  Boston Consulting Group, Projecting US Mail [V]olumes to 2020 Final Report – Detail, March 2, 2010, page 8,
http://about.usps.com/future-postal-service/bcg-detailedpresentation.pdf.
3
  U.S. Postal Service, Report on Form 10-K, page 15 (November 15, 2011).
                                                          1
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service                                   SMT-WP-12-001


FY 2012. In addition, on August 1, 2012, the Postal Service defaulted on the $5.5 billion
deferred payment from FY 2011 and it anticipates defaulting on another $5.6 billion
payment due to the federal government on September 30, 2012.

While electronic diversion has reduced mail volume, it has also created an opportunity
for the Postal Service to serve the nation and generate revenue in new and innovative
ways. One such opportunity could be to offer email management services. Expanding
its products and services beyond traditional mail to include email management services
could help the Postal Service accommodate the evolving needs of the nation and return
to financial solvency.

Background

An email management system is software that allows organizations to minimize human
involvement by centrally collecting and automatically organizing, analyzing, and
preparing responses to inbound email messages. Organizations also use email
management systems to streamline the process of sending outbound email messages.
Currently, organizations that use email management systems rely on private
companies, often located overseas, for this service.

Offering email management services would be consistent with the Postal Service’s
traditional role of providing communication services. There may also be opportunity for
the Postal Service to leverage its existing resources – including staff on 'stand-by time'4
– and reputation as a trusted organization to provide a secure and cost-effective email
management service.

In its FY 2012 Sales Management Process Manual, the Postal Service identified
medium businesses as a target market that the Sales organization will seek to develop.
As discussed in the manual, research has indicated that there is substantive opportunity
for selling both shipping and mailing solutions in the mid-sized business market
segment. The manual states that this segment is often overlooked by the competition
and is rarely offered pricing discounts or other special arrangements. This underserved
segment is also more responsive to advertising appeals and will be targeted via
integrated multi-media advertising campaigns.

Targeting small- and medium-sized businesses (SMB) may be particularly beneficial to
the Postal Service, as they receive about 90 billion email messages from customers
annually and few use email management services. The Postal Service also has a
unique opportunity to market email management services to SMBs because postal
employees have local, direct, face-to-face contact with millions of these businesses
daily.

The Postal Service may have the potential to generate significant revenue by offering
email management services. The revenue generation potential, however, is based on

4
 Stand-by hours are those hours that the Postal Service pays career bargaining unit employees who are guaranteed
workhours under applicable national labor agreements, even when there is insufficient work available.


                                                       2
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service                             SMT-WP-12-001


several assumptions. The Postal Service would need to evaluate these assumptions
and overcome several challenges before it pursues email management as a potential
source of new revenue.

Postal Service’s Role in Communication

Traditionally, organizations relied heavily on the Postal Service to communicate via
paper mail and packages. Email messages, however, have become a key mode of
communication for organizations and individuals. Because of their similar purposes and
features, email is considered the electronic version of the interoffice, inter-organizational
paper-based mail system. Thus, the Postal Service could play a role in providing email
management services, as a natural extension of its core service offerings.

The Postal Service’s Traditional Function

The Postal Service is required by law to “have as its basic function the obligation to
provide postal services to bind the nation together through the personal, educational,
literary, and business correspondence of the people.”5 The Postal Regulatory
Commission (PRC) determined that this universal service obligation, while not
specifically laid out in the law, includes the following attributes:6

     Geographic scope.
     Range of products.
     Access to postal facilities.
     Delivery frequency.
     Prices/affordability.
     Quality of service.
     Users’ rights.

The term 'universal service obligation' has only been used since the mid-20th Century.
Prior to that time, the responsibilities of the Postal Service – which was then the
Post Office Department – were limited to relatively narrow and specific statutory
requirements, financial capabilities, social expectations, and physical capabilities.
Services focused on the collection, transportation, and delivery of letters and parcels.
As political, economic, and social demands changed over time, Americans have
benefited from a universal service obligation that has had the flexibility to evolve with
those changes.

According to the PRC, the 'range of products' aspect of the universal service obligation
is subject to change to meet the evolving needs of citizens and the varying needs for
distinct products. The PRC specifically noted that “what is necessary to bind the nation
together changes over time. When it does, the [universal service obligation] requires
that the Postal Service respond.” The Postal Service has met its universal service
obligation over the past 236 years by providing a secure, reliable, universally accessible

5
    39 U.S.C. 101(a).
6
    Report on Universal Postal Service and the Postal Monopoly, page 4 (December 2008).


                                                         3
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service                 SMT-WP-12-001


platform for physical commerce and communications. To accommodate the evolving
needs of the nation and return to financial solvency, the Postal Service may consider
expanding its products and services beyond physical mail to electronic mail services.

Evolution of Communication Mechanisms

Electronic substitution of traditional mail is accelerating as individuals and organizations
adopt new technologies. Mail users are shifting from traditional hard copy distribution to
a variety of new ways to communicate, advertise, or transact business, including
electronic alternatives. These electronic alternatives, such as email messages, can offer
greater convenience, faster service, and lower cost than traditional, paper-based
communication.

Various communication formats are intended to meet certain goals. Different modes of
messaging are appropriate, depending on the target audience and content of the
message. These modes of messaging apply to both print and digital media. Formal
messages, such as memorandums in the print world, for example, take the form of
email messages in the digital world. Both memorandums and email messages are
structured and usually addressed to a specific person or group. Similar to a
memorandums received at work, email messages include such fields as 'to,' 'from',
'subject,' 'date,' 'body' and sometimes include attachments.

Postal Service’s Evolving Role

The Postal Service has delivered letters, periodicals, catalogs, and packages across
domestic and global channels for more than 2 centuries. These core competencies and
assets from its traditional business operations could allow the Postal Service to deliver
digital communication products as effectively as it has delivered traditional physical
products. As such, the Postal Service providing email management services is a natural
extension of its traditional role.

Additionally, the Postal Service could leverage its role as a trusted organization,
established through its inherent oversight and law enforcement mechanisms, to offer
email management services.

Postal Service as a Trusted Organization

Privacy and security are underlying concerns for users of privatized email management
services. Private providers of email management services have full rights to read the
content of email messages, and reuse that content for business purposes, such as
advertising. Private providers also face high staff turnover and use employees with
limited experience processing paper or electronic mail. Additionally, security and privacy
standards vary significantly between email management service providers.

With a volume growth of email messages, organizations began creating in-house 'email
call centers' and 'email marketing teams' to manage inbound and outbound email



                                                   4
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service               SMT-WP-12-001


messages. Some organizations also began outsourcing these functions with private
companies, often located overseas.

The need for a trusted brand to administer these email management functions will
become increasingly important as the use of email management services grows.
Consumers will want to know who is processing their email messages and whether they
can be trusted. Organizations, particularly SMBs, may be willing to pay a fee for email
management services if there were a greater degree of assurance that their email
messages were protected.

The Postal Service has established itself as a trusted brand by consistently protecting
the privacy and security of paper mail. The Postal Service could leverage its brand to
provide private and secure email management services, which are currently lacking,
particularly for SMBs.

Postal Service’s Inherent Oversight and Enforcement Capabilities

Two law enforcement organizations within the Postal Service provide oversight under
federal law to help ensure secure transactions for mail processing: (1) the U.S. Postal
Inspection Service (Inspection Service), a law enforcement arm, and (2) the U.S. Postal
Service Office of Inspector General (OIG), a law enforcement and oversight arm. These
law enforcement and oversight organizations help deter corruption as well as prevent
fraud, waste, abuse, and mismanagement within the Postal Service.

The OIG investigates internal misconduct, while the Inspection Service focuses on
external crimes connected to the U.S. mail system. Both organizations’ law enforcement
capabilities permit them to investigate crimes committed in violation of federal laws
ranging from identity theft to child exploitation and contract fraud. Additionally, these
organizations create partnerships and collaborate with experts to evaluate risks to the
Postal Service information technology infrastructure and coordinate responses to cyber
attacks.

The Postal Service’s oversight mechanisms could help deter and prevent corruption and
other crimes associated with email management, a protection that is currently lacking
with private email service providers. The Postal Service could apply the compliance
standards it developed for managing postal mail to provide oversight for email
management services.

Mechanics and Operations of Email Management Systems

An email management system is software that organizations use to gather, analyze,
and respond to inbound email messages and streamline the outbound email process.
Email management systems minimize human involvement by centrally collecting and
automatically organizing, analyzing, and preparing responses to email messages. After
analyzing the content of an email message, the system may determine that it needs an
actual person to review and respond to the email message. In such cases, the email



                                                   5
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service                   SMT-WP-12-001


management system sends the email message to a person to read, analyze, and
respond to the email message.

By automating the process for handling email messages, organizations can improve the
efficiency and effectiveness of its email communication. Especially in view of rapidly
evolving communication technology, timely and responsive follow-up is crucial to the
success of organizations. As a result of the increased use of email messages,
individuals expect faster responses from organizations. To satisfy these needs and
expectations, organizations need an efficient, effective, and consistent email
management system that automatically sorts, analyzes, and prepares timely responses.
Providing timely and accurate responses is particularly crucial to the ability of
businesses to acquire and retain customers. Many large companies, including
JCPenney and Kmart, rely on email management systems to handle and respond to
email messages from customers. The lack of proper email management could have a
significant negative effect on organizations.

How Email Management Systems Operate

Email management systems analyze inbound email messages based on certain criteria.
For example, one email management system analyzes email messages based on
five properties:

1. Attitude

The email management system identifies certain words from the email message that
indicate a particular attitude, such as 'love,' 'hate,' or 'terrible.' The email management
system categorizes the attitude of the email message as negative, positive, or neutral,
based on words indicating attitude.

2. Issue

The email management system identifies and categorizes the subject matter based on
the content of the email message. Although the system provides basic issue categories,
organizations can customize these categories based on their mission and operations.
For example, an email management system for the Postal Service might have issue
categories that include stamps, mail delivery, and financial condition. Issue categories
may also change over time as new events, and potential concerns, arise.

3. Request

The email management system determines whether the email message includes a
request for the organization to take action and, if so, the nature of the requested action.




                                                   6
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service              SMT-WP-12-001



4. Products

The email management system identifies specific types of products or product
categories referenced in the email message. The products and product categories will
also depend on the organization. For example, an email management system for the
Postal Service might include product categories such as First-Class Mail, Standard Mail,
or parcels.

5. Customer Type

The email management system collects and analyzes the content of the email message
to identify customer information, including geographical and demographic information.

The email management system uses these properties to analyze each email message
and determine whether it can respond to the email message using a selection of
pre-written responses. If the system cannot determine how to handle the email
message, it forwards the message to a person or department within the organization,
who can analyze the message and respond appropriately.

Appendix A provides additional details about the specific components of an email
management system.

In addition to analyzing email messages to determine an appropriate response, email
management systems can review and categorize the content of email messages to help
the organization:

   Better understand customer feedback. This information can be used for statistical
    reports and graphs, which can help an organization to make both immediate and
    long-term decisions. For example, data collected via an email management system
    may help the organization decide to improve a product that has received a high
    number of complaints over the past several months.

   Obtain data about those who send email messages to the organization, including
    their email addresses, which can be used in communications and marketing
    campaigns.

   Improve customer service, through timely and more thorough responses to email
    messages.

Figure 2 displays some of the business applications that an email management system
may provide.




                                                   7
       U.S. Postal Service Office of Inspector General
        Email Management Service: Opportunity for the Postal Service                   SMT-WP-12-001


                         Figure 2 – Possible Applications of Email Management Systems


           Customer Care                                                                     Direct Marketing




  Lead Management
                                                                                              Market Research
    Electronic Billing

                                                                                              Compliance & Storage
  Secure Messaging

    List Management                                                                           Data Warehousing


Analytics & Reporting                                                                        Newsletters


   Offers & Coupons
                                                                                             Notifications



             Small & Medium                                                                  Surveys
             Business
             Applications

       Source: ICIS.
       Note: BI – Business Intelligence.

       Technology Behind Email Management Systems

       Implementation of an email management system requires technology architecture and
       infrastructure. The technology architecture needed to support an email management
       system generally consists of:

            User interface layer – the layer in which users interact with the email management
             system. This includes the login process and the ability to read, write, edit, and send
             responses, and view system-generated reports.

            Application layer – handles the core programs that perform data processing and
             calculations.

            Database layer – securely stores the data.

            Email Server layer – handles the actual transmittal of inbound and outbound email
             messages within the email management system.

            Security layer – a combination of hardware and software parts that maintain security
             of the email management system by detecting and preventing unauthorized
             intrusions into the system.




                                                          8
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service             SMT-WP-12-001


Email Management Service Options

The goal of an email management system is to increase the efficiency and effectiveness
of processing email messages by minimizing human involvement in organizing,
analyzing, and responding to email messages. Human intervention, however, may be
necessary in the final stages, which requires validation and dispatching responses
through the system. Email management within organizations has evolved into being
handled through a blend of in house or outsourced post office-like functions. For this
reason, the Postal Service may want to consider offering inbound and outbound email
management services to organizations in need of the service.

We worked with the International Center for Integrative Systems to develop models the
Postal Service may want to consider in offering email management services. This
analysis considered the types of services potential users of an email management
system may want and how the Postal Service could leverage its existing resources to
offer such services. The analysis also included high level estimates of how much
revenue the Postal Service could possibly generate under these models.

Inbound Email Management Services

The Postal Service may want to consider offering email management services that help
organizations manage incoming email messages, as it may be an opportunity to
generate additional revenue. Three possible models for the Postal Service providing
email management services are: (1) tightly coupled, (2) semi-coupled, and (3) loosely
coupled.

Tightly Coupled Model (Postal Service as a Service Provider)

Under this model, the Postal Service would own and manage the technology and
security infrastructure and use its own employees to support the email management
system. Specifically, the Postal Service could use existing employees on stand-by time
to help provide the human intervention needed at the end of the process. Postal Service
employees would have to undergo customized training in the areas of customer service,
reading and analyzing the content of email messages, responding to email messages,
and other functions needed to operate the email management system. The Postal
Service could generate about 428,304 per month, or more than $5 million per year,
under this model. This estimate is based on the following assumptions:

   The Postal Service could use existing employees on stand-by time to manage and
    support the email management system and would not have to hire additional
    employees.




                                                   9
       U.S. Postal Service Office of Inspector General
        Email Management Service: Opportunity for the Postal Service                                       SMT-WP-12-001


                 Postal Service employees on stand-by time could process an average of 12 email
                  messages per hour.7

                 The average monthly stand-by time between October 2011 and April 2012 was
                  35,691 hours. This estimate assumes that one-half of the monthly average stand-by
                  hours (17,846) would be available for postal employees to provide email
                  management services.

                 The Postal Service processes 214,152 email messages per month or 2,569,824
                  email messages per year.

                 Organizations would be willing to pay $2 per email message.8

                 Significant costs are limited to start-up costs, such as acquisition and maintenance
                  of the email management system technology, as well as the costs associated with
                  configuring the information technology systems to handle the email management
                  system. These start-up costs are not included in the estimate; so they would reduce
                  the gross profit estimate.

       Table 1 uses these assumptions to estimate the amount of revenue the Postal Service
       could generate monthly under this model. The top row represents the number of email
       messages an employee may process per hour. The first column represents the per-
       email message fees the Postal Service may charge to its email management service
       customers.

                            Table 1 – Gross Profit Projection for Tightly Coupled Model

                                  Number of Email Messages Processed by an Employee Per Hour
                      Fee         7           9              11             12              13                14
Email Message Fees
 the Postal Service




                      $ 0.5000    $62,461      $80,307        $98,153        $107,076         $115,999         $124,922
                      $ 0.6575    $82,136     $105,604       $129,071        $140,805         $152,539         $164,272
      Charges




                      $ 1.0000   $124,922     $160,614       $196,306        $214,152         $231,998         $249,844
                      $ 1.5000   $187,383     $240,921       $294,459        $321,228         $347,997         $374,766
                      $ 2.0000   $249,844     $321,228       $392,612        $428,304         $463,996         $499,688
                      $ 3.0000   $374,766     $481,842       $588,918        $642,456         $695,994         $749,532
                 $ 4.0000        $499,688     $642,456       $785,224        $856,608         $927,992         $999,376
       Source: ICIS.


       7
         Without an email management system, customer service representatives can process about six email messages per
       hour. Improving the Customer Experience While Reducing Operating Costs, RightNow Technologies, page 32
       (2009), http://www.rightnow.com/files/analyst-reports/RightNow_Multi-
       Channel_Contact_Center_Benchmark_Report.pdf. Email management systems can double or triple the number of
       email messages that an average customer service representative can process hourly. Thus, we can conservatively
       assume that a Postal Service employee using an email management system could process at least 12 email
       messages per hour.
       8
          The Postal Service could reasonably expect that customers would be willing to pay $2 per email message because
       it is more cost-effective than the approximate $3.50 it costs, on average, for each customer contact without an email
       management system. Cost Structure and Distribution in Today’s Contact Centers, Strategic Contact, Inc., page 8
       (2008), http://www.strategiccontact.com/pdf/CC_Cost_WP.pdf.


                                                                  10
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service                                     SMT-WP-12-001



Assuming Postal Service employees on stand-by time could process an average of 12
email messages per hour and the Postal Service could charge $2 per email message,
the Postal Service may be able to generate approximately $428,304 per month, or more
than $5 million per year in revenue (see highlighted cell in Table 1).

Semi-Coupled Model (Postal Service and Contractors as a Service Provider)

Under this model, the Postal Service would own and manage the technology and
security infrastructure. The Postal Service would need to use 119 call center
representatives to process the same number of email messages monthly as under the
tightly coupled model, which assumes 17,846 hours of available stand-by time. This
number is calculated by dividing 17,846 hours of available stand-by time by 150 hours
per month that each call center representative could work. This totals 119 call center
representatives.

The call center representatives would have to undergo customized training in the areas
of customer service, reading and analyzing the content of email messages, responding
to email messages, and other functions needed to operate the email management
system.

The Postal Service could generate an estimated $46,043 per month, or more than
$550,000 per year, under this model. This estimate is based on the following
assumptions:

   Each call center representative is available to work 150 hours a month, after
    considering vacation, holidays, and other absences.

   The fully-loaded cost for each call center representative is $21.42.9

   Each call center representative using an email management tool could process up to
    12 email messages per hour.

   Call center representatives process 214,152 email messages per month or
    2,569,824 email messages per year. Organizations would be willing to pay $2 per
    email message.

Table 2 uses these assumptions to estimate the amount of gross profit the
Postal Service could generate monthly under this model. The top row is the number of
email messages a call center representative may process per hour. The first column
shows fee per email for email management service the Postal Service may charge.

9
  The fully loaded cost for a customer service contact is $3.57. Cost Structure and Distribution in Today’s Contact
Centers, Strategic Contact, Inc., page 8 (March 2008), http://www.strategiccontact.com/pdf/CC_Cost_WP.pdf. Typical
customer service representatives can process six email messages per hour, which equates to an hourly rate of
$21.42. Improving the Customer Experience While Reducing Operating Costs, RightNow Technologies, page 32
(2009), http://www.rightnow.com/files/analyst-reports/RightNow_Multi-
Channel_Contact_Center_Benchmark_Report.pdf.


                                                        11
    U.S. Postal Service Office of Inspector General
     Email Management Service: Opportunity for the Postal Service                                             SMT-WP-12-001




                             Table 2 – Gross Profit Projection for Semi-Coupled Model

                                 Number of Email Messages Processed by a Call Center Representative per Hour
                      Fees           7                 9                   11              12             13                  14
Email Message Fees
 the Postal Service




                      $ 0.5000   $ (319,800)       $ (301,954)             $ (284,108)     $ (275,185)    $ (266,262)     $ (257,339)
                      $ 0.6575   $ (300,125)       $ (276,657)             $ (253,190)     $ (241,456)    $ (229,723)     $ (217,989)
      Charges




                      $ 1.0000   $ (257,339)       $ (221,647)             $ (185,955)     $ (168,109)    $ (150,263)     $ (132,417)
                      $ 1.5000   $ (194,878)       $ (141,340)             $    (87,802)   $ (61,033)     $    (34,264)   $        (7,495)
                      $ 2.0000   $ (132,417)       $       (61,033)        $     10,351    $   46,043     $     81,735    $    117,427
                      $ 3.0000   $       (7,495)   $        99,581         $    206,657    $    260,195   $    313,733    $    367,271
              $ 4.0000           $   117,427       $       260,195         $    402,963    $    474,347   $    545,731    $    617,115
    Source: ICIS.

    Assuming call center representatives could process an average of 12 email messages
    per hour and the Postal Service could charge $2 per email message, the Postal Service
    may be able to generate $46,043 per month, or more than $550,000 per year in
    revenue (see highlighted cell in Table 2).

    Loosely Coupled Model (Postal Service-Branded System)

    Under this model, the Postal Service would leverage its brand name and reputation as a
    trusted service provider to offer a Postal Service-branded email management system.
    The Postal Service could contract with a team of information technology staff to monitor
    and maintain the technology infrastructure and security components of the system.
    Neither Postal Service employees nor current call center representatives would be
    involved in the email management system under this model.

    The Postal Service could generate an estimated $22.5 million per month, or
    $270 million per year, under this model. This estimate is based on the following
    assumptions:

              There are 10 million SMBs in the U.S.,10 each of which receives on average
               25 customer service inquiry email messages per day.

              The total monthly market for email message management is 7.5 billion email
               messages.11

              The Postal Service could charge its customers $2 per email message.

              The Postal Service could receive 30 percent of the revenue generated under a
               revenue sharing agreement.12
    10
       Consistent with the IRS, small and medium businesses in this model are assumed to be those with less than $10
    million in assets.
    11
       This estimate is based on 10 million small and medium businesses in the U.S. that receive 25 customer service
    inquiry email messages per day, or 750 email messages monthly.


                                                                      12
              U.S. Postal Service Office of Inspector General
               Email Management Service: Opportunity for the Postal Service                                    SMT-WP-12-001



                   The Postal Service is able to capture 0.5 percent of the total market share of the
                    SMBs email messages in the U.S.

                   Service provider will process 37.5 million email messages per month or 450 million
                    email messages per year.

              In Table 3, the top row represents possible percentages of SMB market share the
              Postal Service may be able to capture. The first column is the estimated per email
              message fee the Postal Service could charge its customers.

                               Table 3 – Gross Profit Projection for Loosely Coupled Model
                                                        (in Millions)

                           Percentage of SMB Email Management Market the Postal Service Could Acquire as Market Share
                    Fees         0.12 %          0.25 %             0.50 %             0.60 %            0.75 %          1.00 %
Per Email Message




                    $ 0.5000          $ 1.35           $ 2.81              $ 5.66            $ 6.75          $ 8.44           $ 11.25
                    $ 0.6575          $ 1.78           $ 3.70              $ 7.40            $ 8.88          $ 11.10          $ 14.79
      Fees




                    $ 1.0000          $ 2.70           $ 5.63              $ 11.25          $ 13.50          $ 16.88          $ 22.50
                    $ 1.5000          $ 4.05           $ 8.44              $ 16.88          $ 20.25          $ 25.32          $ 33.75
                    $ 2.0000          $ 5.40          $ 11.25              $ 22.50          $ 27.00          $ 33.75          $ 45.00
                    $ 3.0000          $ 8.10          $ 16.88              $ 33.75          $ 40.50          $ 50.63          $ 67.50
                 $ 4.000              $10.80          $ 22.50              $ 45.00          $ 54.00          $ 67.50          $ 90.00
              Source: ICIS.

              Assuming the Postal Service could capture 0.5 percent of the total market share and
              arrange a 30 percent revenue sharing agreement, the Postal Service could generate
              approximately $22.5 million per month, or $270 million per year (see the cell highlighted
              in Table 3).

              Outbound Email Management Services

              In addition to assisting organizations in managing their inbound email messages, there
              may be an opportunity for the Postal Service to generate revenue by offering services
              that would manage organizations’ outbound email messages. Specifically, the Postal
              Service could assist organizations by providing targeted marketing email messages and
              other email communications to specific people through an outbound email management
              service. Similar to the loosely coupled model, the Postal Service could leverage its
              brand name and reputation as a trusted service provider. The Postal Service could
              contract with a team of information technology staff to monitor and maintain the
              technology infrastructure and security components of the system.




              12
                Revenue sharing agreements at the rate of 30 percent is standard among most distribution agreements in the
              software and services industry (http://softwareceo.com/forum/thread/1296/Commission-rate-for-1099-sales-agents/).


                                                                     13
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service                                   SMT-WP-12-001


The Postal Service could generate an estimated $250 million per year by offering
outbound email management services. This estimate is based on the following
assumptions:

    A typical SMB would be willing to pay $0.02 per outbound email marketing message
     delivered through an email management system.13

    SMBs send about 250 billion marketing email messages per year.14

    The Postal Service could acquire 5 percent of the total SMB market share.

Challenges in Offering Email Management Services

While the opportunity for the Postal Service to offer email management services may
help it meet its mission in the context of evolving communications mechanisms and
generate additional revenue, the Postal Service will likely face several challenges in
pursuing it as a new product. Understanding and addressing these challenges will be
critical to the Postal Service’s ability to pursue email management services as a new
service and in deciding which model has the best chance for success.

Legal

The Postal Service may be prohibited from offering email management services, under
the law that prevents it from providing 'non-postal' products and services.15 The PRC is
responsible for making a determination as to whether a potential new product or service
would be considered 'non-postal.' The definition of “postal” services under the law may
need to be expanded to include email management services, if the PRC determines that
the service is 'non-postal.' Such a change to the law may be difficult, as Congress has
raised concerns about the Postal Service’s past efforts to enter into the digital arena
through new products and services.16

In April 2012, however, the U.S. Senate passed the 21st Century Postal Service Act of
2012, which includes a provision that would allow the Postal Service to provide non-
 postal products and services under certain criteria.17 Specifically, the Postal Service
would be allowed to offer non-postal products and services that:


13
   Currently, private marketing companies charge about $0.02 for each electronic marketing message. See Advisor
Marketing the Right Way in the 21st Century, Financial Advisor (April 16, 2012), http://www.fa-mag.com/online-
extras/10619-advisor-marketing-the-right-way-in-the-21st-century.html?tmpl=component&print=1&page=; and Mobile
Marketing: Web Marketing You Can’t Afford to Ignore, Benchmark Email (June 29, 2011),
http://www.benchmarkemail.com/blogs/detail/mobile-marketing-web-marketing-you-cant-afford-to-ignore.
14
   This is based on multiplying the 10 million SMBs in the U.S. by the estimated 25,000 marketing email messages
SMBs send annually.
15
   P.L. 109-435, Section 102.
16
   Update on E-Commerce Activities and Privacy Protections, Government Accountability Office (GAO) (2001), page
17; Financial Challenges Continue, with Relatively Limited Results from Recent Revenue-generation Efforts, GAO
(2009), page 9.
17
   S. 1789, 21st Century Postal Service Act of 2011, Section 209.


                                                       14
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service                     SMT-WP-12-001


      Use the processing, transportation, retail network, or technology of the
       Postal Service.

      Are consistent with the public interest and a demonstrated or potential public
       demand for the Postal Service to provide the services instead of another entity
       providing the services or in addition to another entity providing the services.

      Do not create unfair competition with the private sector.

      Have potential to improve the Postal Service’s net financial position.

This bill has not yet been considered in the House, but inclusion of this provision in a
Senate-passed bill indicates that the Postal Service may have the opportunity in the
future to offer digital products and services, such as email management services.

Regulatory

The Postal Accountability and Enhancement Act (PAEA) limits Postal Service’s
authority to offer non-postal products and services to those that were offered as of
January 1, 2006.18 Therefore, under PAEA, the only new products and services
Postal Service can offer are those that are considered 'postal' products and services. If
the PRC classifies the email management service as 'non-postal,' the Postal Service
would not be able to offer this service. If the PRC classifies email management service
as “postal,” the Postal Service would need PRC approval to add this new service to the
competitive products list.19

Union

The Postal Service would likely need to negotiate changes to the collective bargaining
agreements with its unions to include a new job description or changes to existing
positions that would allow employees to perform work related to email management
services. Collective bargaining agreements involve complex negotiations and require
significant time and resources to reach agreement. Introducing a new service, as well
as changing the roles and responsibilities of Postal Service employees would likely be
particularly challenging.

Cultural

Although the Postal Service culture has become more receptive towards changing
market demand, it remains one of the greatest challenges to implementing innovative
solutions. Therefore, there must be an ongoing effort to educate postal management
and employees on the benefits of embracing emerging technologies and more efficient
and effective operations.


18
     S. 1789, 21st Century Postal Service Act of 2011, Section 209.
19
     39 U.S.C. § 3642(a).


                                                           15
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service                 SMT-WP-12-001


Proposed Next Steps

The estimated revenue generation opportunities for the Postal Service are based on
several assumptions about the potential market for an email management system,
customers’ willingness to pay for the service, and associated costs to provide the
service. Before it pursues any of these options, we recommend the Postal Service
conduct in-depth analysis of the opportunities to provide email management services,
including the potential to generate revenue. We also recommend the Postal Service
closely coordinate with stakeholders to address the aforementioned challenges
identified above as it moves forward in conducting additional research, and potentially
implementing an email management system.

Proposed Research and Experiments

To help validate some of the assumptions made above, and to ultimately determine
whether this is an opportunity to pursue, the Postal Service should conduct its own
independent research and experiments. Before conducting research and experiments,
the Postal Service should ensure the following:

   A platform is available to conduct the experiment in a secure and controlled
    environment.

   Infrastructure for deploying an email management platform is available without major
    costs to the Postal Service, such as a cloud-based system.

   The Postal Service is able to acquire or build business relationships with target
    SMBs for the experiments.

   Employees at selected post offices are available to receive training to learn the email
    management platform.

These experiments are intended to test whether SMBs would be interested in using the
Postal Service to:

   Deliver direct print and electronic marketing messages to their customers;

   Manage inbound email messages from customers; or

   Manage inbound email messages from customers and provide outbound email
    marketing services.

Through these experiments, the Postal Service should obtain an understanding of:

   Acquisition costs of SMBs as customers for the service.

   The types of businesses that would most likely adopt the service.


                                                   16
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service                 SMT-WP-12-001



   Fees that SMBs would be willing to pay for the service.

   Associated costs to train and deploy Postal Service employees for the service.

Coordination with Stakeholders

The Postal Service will likely face significant obstacles in pursuing the ability to offer
email management services. Thus, the Postal Service should closely coordinate with
stakeholders to address these challenges as it moves forward in conducting additional
research and potentially implementing an email management system.

Conclusion

An opportunity may exist for the Postal Service to generate additional revenue by
offering email management services as an extension of its traditional role as a
communications network provider. In this report, we have considered several
approaches the Postal Service could take in offering an email management service.
These deployment options and potential revenue estimates are based on several
assumptions that it would need to validate before pursuing email management as a new
service offering. As next steps, we recommend the Postal Service conduct experiments
and gather additional market data to validate the assumptions, as well as identify
solutions for the challenges discussed in the report.




                                                   17
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service                SMT-WP-12-001


              Appendix A: Components of an Email Management System

Effective email message management includes the following components:

1. Data Collection: Receive and store inbound email messages for further process.

2. Prefiltering:

       Filter collected email messages in accordance with the established parameters.

       Send email messages with unwanted content into a SPAM folder.

       Store undeliverable email messages – also known as bounce-back’ and
        unsubscribe requests – in other folders.

3. Raw Email Data:

       This is a holding queue for all the email messages that need to be processed
        further.

       If necessary, additional tags may be added to each email message for further
        processing.

       It may also include the ability to connect to remote databases and retrieve
        specific information about the email author and associated email transactions
        with the organization.

4. Intelligent Analysis Module (Business Intelligence):

       This module reads the raw email message data and analyzes the subject,
        content, attachments, and tags added by the data enhancement module.

       The module uses the following five criteria for the analysis:

        o Attitude: Positive, negative, or both and may be neutral.

        o Issue: The key issues in the email message. For example, damaged product,
          inaccurate billing, and so forth.

        o Request: A request for information such as annual report.

        o Product or Object of Interest: The key product or object of issue, for example,
          shoe, umbrella, sofa, and so forth.

        o Customer Type: Specific information about the customer such as gender and
          job title.



                                                   18
U.S. Postal Service Office of Inspector General
 Email Management Service: Opportunity for the Postal Service                  SMT-WP-12-001


       This module may store this 'intelligence' as 'Intelligent Data' tagged on to the
        email message.

5. Workflow module:

       Determines which department(s) or person(s) in the organization are best suited
        for taking action for a particular email message.

       This module can also use the intelligent 'tags' to select a standard response for
        review by customer service personnel.

6. Customer Service Personnel:

       Work through the workflow module to process email messages.

7. Archival module:

     Stores every email message received and processed a database.
     The database allows easy searching of past email messages.

8. Analytics module: Generates statistical reports and graphs that help the organization
   to make business decisions.

9. Lists Module: Creates email address lists and targeted lists for email marketing
   campaigns.

10. The Delivery Module: Handles two types of email messages:

           Response to an inbound email message.
           Email message that can be used for marketing purposes.




                                                   19
